No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
RAMADAN TAJADEEN SHABAZZ,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of the United States District Court for the Eastern District
of Michigan
Appendix C Judgment and Revocation of Sentence from of the United States
District Court for the Northern District of Texas

APPENDIX A

Case: 19-10896
Document: 00515512164 Page: 1 Date Filed: 08/03/2020
ORIGINAL
FILED
Case 4:19-cr-00143-A Document 59 Filed 08/03/20 Page 1 of 3 PageID 811
CTJ

August 03, 2020
KAREN MITCHELL

U.S. DISTRICT COURT
IN THE UNITED STATES COURT OF CLERK,
APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10896
Summary Calendar

FILED
July 10, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
RAMADAN TAJEDEEN SHABAZZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-143-1-A
Before KING, DENNIS, and GRAVES, Circuit Judges.
PER CURIAM: *
Ramadan Tajedeen Shabazz, previously convicted of wire fraud, appeals
the mandatory revocation of his supervised release pursuant to 18 U.S.C.
§ 3583(g) and his 24-month revocation sentence. We affirm.
First, Shabazz argues that the admission of out-of-court statements at
his revocation hearing violated his due process rights under the Confrontation
Clause. Our review of this unpreserved issue is for plain error. See Puckett v.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10896

Document: 00515512164

Page: 2

Case 4:19-cr-00143-A Document 59 Filed 08/03/20

No. 19-10896

Date Filed: 08/03/2020

Page 2 of 3 PageID 812

United States, 556 U.S. 129, 135 (2009). Accordingly, Shabazz must show (1) a
forfeited error, (2) that is “clear or obvious, rather than subject to reasonable
dispute,” and (3) that affected his substantial rights. Id. If he does that, we
have the discretion to correct the error and should do so “only if the error
seriously affects the fairness, integrity or public reputation of judicial
proceedings.” Id. (internal quotation marks, citation, and alteration omitted).
Shabazz pleaded true to the allegation that he violated a special condition of
his supervised release by failing to comply with urinalysis drug screening;
therefore, the district court was statutorily mandated to revoke his supervised
release. See § 3583(g)(3). Because the revocation of supervised release was
supported by substantial evidence besides the alleged hearsay testimony,
Shabazz cannot show that the putative error affected his substantial rights,
and his argument cannot survive plain error review. See Molina-Martinez v.
United States, 136 S. Ct. 1338, 1343 (2016); United States v. Hughes, 237
F. App’x 980, 981 (5th Cir. 2007). 1
Next, Shabazz argues that his statutory-maximum revocation sentence
is substantively unreasonable because the district court undervalued the
advisory range of imprisonment set forth in policy statement U.S.S.G. § 7B1.4
and considered two stale convictions that were not counted for purposes of
calculating his original criminal history score. He acknowledges that this court
reviews the substantive reasonableness of a revocation sentence under the
plainly unreasonable standard, United States v. Sanchez, 900 F.3d 678, 682
(5th Cir. 2018), but seeks to preserve for further review his argument that
revocation sentences should instead be reviewed for “unreasonableness.”

While unpublished opinions issued on or after January 1, 1996, are not precedential,
they may be treated as persuasive authority. See 5th Cir. R. 47.5.4; Ballard v. Burton, 444
F.3d 391, 401 n.7 (5th Cir. 2006).
1

2

Case: 19-10896

Document: 00515512164

Page: 3

Case 4:19-cr-00143-A Document 59 Filed 08/03/20

No. 19-10896

Date Filed: 08/03/2020

Page 3 of 3 PageID 813

The district court considered and rejected § 7B1.4, determining that the
applicable 18 U.S.C. § 3553(a) factors required a harsher sentence, and was
required to do no more. See United States v. Headrick, 963 F.2d 777, 782 (5th
Cir. 1992).

Moreover, we have routinely affirmed statutory-maximum

revocation sentences imposed in excess of the advisory policy range.

See

United States v. Warren, 720 F.3d 321, 332 (5th Cir. 2013). Shabazz therefore
has not shown an abuse of discretion on the part of the district court. See
Sanchez, 900 F.3d at 682.
Finally, Shabazz argues that § 3583(g) is unconstitutional in light of
United States v. Haymond, 139 S. Ct. 2369 (2019), because it does not require
a jury determination of guilt beyond a reasonable doubt. Our review is for
plain error. See Puckett, 556 U.S. at 135. The Supreme Court’s decision in
Haymond addressed the constitutionality of § 3583(k), and the plurality
opinion specifically declined to “express a view on the mandatory revocation
provision for certain drug and gun violations in § 3583(g).” 139 S. Ct at 2382
n.7 (plurality opinion). The application of § 3583(g) therefore was not plain
error. See United States v. Badgett, 957 F.3d 536 (5th Cir. 2020).
AFFIRMED.

3

APPENDIX B

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.568 Page 1 of 8
Document 2 Filed 05/10/19 Page 11 of 27 PageID 13

Case
4:19-cr-00143-A
AO 245B (Rev. )
Judgment
in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
(DVWHUQ'LVWULFWRI0LFKLJDQ
UNITED STATES OF AMERICA

v.
RAMADAN TAJEDEEN SHABAZZ

)
)
)
)
)
)
)
)
)

JUDGMENT IN A CRIMINAL CASE
Case Number: 2:14-CR-20339-01
USM Number: 35198-086
William Swor
Defendant’s Attorney

THE DEFENDANT:
✔ pleaded guilty to count(s)
G

2s of the First Superseding Indictment

G pleaded nolo contendere to count(s)
which was accepted by the court.

G was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

;..BM

18 U.S.C. § 1343

Nature of Offense

Offense Ended Count

4/22/2014

Wire Fraud

8

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

2s

of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
✔ Count(s)
G

1, 2, & 3 of the Indictment; 1s & 3s of the Superseding Indictment

✔are dismissed on the motion of the United States.
GisG

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

7/22/2016
Date of Imposition of Judgment

s/Denise Page Hood
Signature of Judge

Denise Page Hood, U.S. District Judge
Name and Title of Judge

8/26/2016
Date

19-10896.19

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.569 Page 2 of 8
Case 4:19-cr-00143-A Document 2 Filed 05/10/19 Page 12 of 27 PageID 14
AO 245B (Rev. ) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

2

of

8

DEFENDANT: RAMADAN TAJEDEEN SHABAZZ
CASE NUMBER: 2:14-CR-20339-01

IMPRISONMENT
The defendant is hereby committed to the custody of the )HGHUDO Bureau of Prisons to be imprisoned for atotal
term of:

60 months to run concurrent with 14-CR-20550-01.
While in custody, the defendant shall participate in the Inmate Financial Responsibility Program. The Court is aware of the
requirements of the program and approves of the payment schedule of this program and hereby orders the defendant's
compliance.
✔ The court makes the following recommendations to the Bureau of Prisons:
G

That the defendant be placed in a facility as close as possible to Fort Worth, Texas

✔
The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
a

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

19-10896.20

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.570 Page 3 of 8
Case 4:19-cr-00143-A Document 2 Filed 05/10/19 Page 13 of 27 PageID 15

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3 — Supervised Release

3

Judgment—Page

of

8

DEFENDANT: RAMADAN TAJEDEEN SHABAZZ
CASE NUMBER: 2:14-CR-20339-01

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of :
3 years.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.

G The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)

✔ The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
G

G The defendant shall cooperate in the collection of DNA as directed by the probation officer.

(Check, if applicable.)

(Check, if applicable.)

defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et seq.)
G The
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which he or she resides,
works, is a student, or was convicted of a qualifying offense. (Check, if applicable.)

G The defendant shall participate in an approved program for domestic violence.

(Check, if applicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with the
Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;

6)

the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;

12)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and

13)

as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant’s compliance with such notification requirement.

19-10896.21

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.571 Page 4 of 8
Document 2 Filed 05/10/19 Page 14 of 27 PageID 16

AO 245B (Rev. ) Judgment in a Criminal Case
4:19-cr-00143-A
Sheet 3CCase
— Supervised
Release

Judgment—Page

4

of

8

DEFENDANT: RAMADAN TAJEDEEN SHABAZZ
CASE NUMBER: 2:14-CR-20339-01

SPECIAL CONDITIONS OF SUPERVISION
Due to the defendant's past drug history, the following condition are ordered:
1. The defendant shall participate in a program approved by the Probation Department for substance abuse, which
program may include testing to determine if the defendant has reverted to the use of drugs or alcohol. If necessary.
2. The defendant shall take all medications as prescribed by a physician whose care he is under, including a psychiatrist,
in the dosages and at the times proposed. If the defendant is prescribed a medication, he shall take it, and the defendant
shall not discontinue medications against medical advice.
3. The defendant shall provide the United States Probation Officer, within 7 (seven) days of release from the custody of the
Bureau of Prisons, a written report, in a form the USPO directs, listing each and every prescription medication in the
Defendant’s possession, custody, or control. The list shall include, but not be limited to, any prescription medication that
contains a controlled substance and encompasses all current, past, and outdated or expired prescription medications in a
Defendant’s possession, custody, or control at the time of the report.
4. The defendant/offender shall notify the United States Probation Officer (USPO) immediately (ie. within no later than 72
hours) if the defendant/offender receives any prescription for medication containing a controlled substance during the
period of supervised release. The defendant/offender shall provide the USPO such documentation and verification as the
USPO may reasonably request and in a form the USPO directs.
Due to the defendant’s personal history and the characteristics of the instant offense, the following condition is ordered:
5. The defendant shall participate in a program approved by the U.S. Probation Department for treatment of gambling
addictions, if necessary. The defendant shall pay the costs of such treatment if deemed ineligible for state funding.
6. The defendant is prohibited from entering the premises of any gambling casinos or other places where gambling activity
is conducted, such as horse tracks, bingo parlors, dog races/fights, etc., whether legal or illegal. The defendant is
prohibited from engaging in any gambling activity, games of chance, lotteries or wagering of any kind, including computer
gambling and stock trading, and from being in the presence of anyone engaging in this activity.
7. The defendant shall not incur any new credit charges or open additional lines of credit without the approval of the
probation officer, unless the defendant is in compliance with the payment schedule.
8. The defendant shall provide the probation officer access to any requested financial information.
9. The defendant shall make monthly installment payments on any remaining balance of the restitution and special
assessment at a rate and schedule recommended by the probation department and approved by the Court.

19-10896.22

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.572 Page 5 of 8
Document 2 Filed 05/10/19 Page 15 of 27 PageID 17

AO 245B (Rev. ) Judgment in a Criminal Case
Case 4:19-cr-00143-A
Sheet 5 — Criminal Monetary Penalties

Judgment — Page

5

of

8

DEFENDANT: RAMADAN TAJEDEEN SHABAZZ
CASE NUMBER: 2:14-CR-20339-01

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Fine

Assessment
TOTALS

$ 100.00

$ 0.00

G The determination of restitution is deferred until

$

Restitution
81,830.90

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

✔ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
G
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Total Loss*

Name of Payee
Mr. Check Cashing
20511 Dequindre Street
Detroit, MI 48234-1259

Restitution Ordered Priority or Percentage

$3,610.00

$3,610.00

All American Check Cashing
2860 US-80
Pearl, MS 39208

$17,605.50

$17,605.50

College Point Check Checking
1830 College Point Boulevard
College Point, NY 11356

$13,667.00

$13,667.00

Discount Check Cashing
2802 North Lafayette Road Suite 22
Indianapolis, IN 46222

$14,671.45

$14,671.45

Cashland
3625 South Ererson Avenue
Beech Grove, IN 46107-3348

$14,671.45

$14,671.45

We Cash It
5052 North State Street, Jackson, MS 39206

$17,605.50

$17,605.50

TOTALS

$

81,830.90

$

81,830.90

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

✔
G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
✔ the interest requirement is waived for the
G

G the interest requirement for the

G fine

G fine

✔ restitution.
G

G restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

19-10896.23

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.573 Page 6 of 8
Document 2 Filed 05/10/19 Page 16 of 27 PageID 18

AO 245B (Rev. ) Judgment in a Criminal Case
Case
4:19-cr-00143-A
Sheet 5A
— Criminal
Monetary Penalties

Judgment—Page

6

of

DEFENDANT: RAMADAN TAJEDEEN SHABAZZ
CASE NUMBER: 2:14-CR-20339-01

ADDITIONAL TERMS FOR CRIMINAL MONETARY PENALTIES
The Court waives the imposition of a fine, the costs of incarceration and the costs of supervision due to the defendant's
lack of financial resources.

19-10896.24

8

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.574 Page 7 of 8
Document 2 Filed 05/10/19 Page 17 of 27 PageID 19

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 6 —Case
Schedule4:19-cr-00143-A
of Payments

7

Judgment — Page

of

8

DEFENDANT: RAMADAN TAJEDEEN SHABAZZ
CASE NUMBER: 2:14-CR-20339-01

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

G Lump sum payment of $
G
G

not later than
in accordance

100.00

due immediately, balance due
, or

G C,

G D,

G E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

G Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
WKHSHULRGRIimprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate FinancialResponsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

✔
Joint and Several
G

Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

REFER TO PAGE 8

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

19-10896.25

Case 2:14-cr-20339-DPH-MKM ECF No. 125 filed 08/26/16 PageID.575 Page 8 of 8
Document 2 Filed 05/10/19 Page 18 of 27 PageID 20

AO 245B (Rev. ) Judgment in a Criminal Case
4:19-cr-00143-A
Sheet 6ACase
— Schedule
of Payments

Judgment—Page

8

of

8

DEFENDANT: RAMADAN TAJEDEEN SHABAZZ
CASE NUMBER: 2:14-CR-20339-01

ADDITIONAL DEFENDANTS AND CO-DEFENDANTS HELD JOINT AND SEVERAL
Case Number
Defendant and Co-Defendant Names
(including defendant number)

Total Amount

Joint and Several
Amount

Corresponding Payee,
if appropriate

Ramadam Tajedeen Shabazz,
14-CR-20339-01

$81,830.90

$81,830.90

Refer to page 5

Catherine Taliercio,
14-CR-20339-02

$81,830.90

$81,830.90

Refer to page 5

All Others, if convicted later

19-10896.26

APPENDIX C

Case 4:19-cr-00143-A Document 31 Filed 08/02/19

DISTRICT COURT
Page 1NORTHERN
of 4U.S.PageID
544
DISTRICT OF TEXAS

FILED

IN THE UNITED STATES DISTRICT C URT
NORTHERN DISTRICT OF TEXAS
i
FORT WORTH DIVISION

AUG -2

n)

CLERK, U.S. DISTRICT COURT
B~·----,,..-,---­

UNITED STATES OF AMERICA

hcputy

§
§

vs.

§

NO. 4:19-CR-143-A

§

RAMADAN TAJEDEEN SHABAZZ

§

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, RAMADAN TAJEDEEN
SHABAZZ.

After having considered the grounds of the

government's motion, the evidence presented, statements of and on
behalf of defendant, and argument of counsel, the court has
determined that the term of supervised release imposed on
defendant should be revoked and that defendant should be
sentenced to a term of imprisonment of 24 months and to serve a
12-month term of supervised release upon discharge from prison.
The court finds and concludes that:
(a)

Defendant was given, in a timely manner, written

notice of his alleged violations of the term of supervised
release upon which the motion to revoke is based;
(b)

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearing;

Case 4:19-cr-00143-A Document 31 Filed 08/02/19

(c)

Page 2 of 4 PageID 545

There was a disclosure to defendant, and his

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553 (a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the judgment in a criminal
case imposed July 22, 2016, and signed August 26, 2016, in Case
Number 2:14-CR-20339-01 in the United States District Court for
the Eastern District of Michigan (the "underlying judgment") be,
and is hereby, revoked; and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, RAMADAN TAJEDEEN SHABAZZ, be, and is hereby,
committed to the custody of the United States Bureau of Prisons
to be imprisoned for a term of 24 months, to be followed by a
term of supervised release of 12 months.

2

Case 4:19-cr-00143-A Document 31 Filed 08/02/19

Page 3 of 4 PageID 546

The court further ORDERS, ADJUDGES, and DECREES that, while
on supervised release, defendant shall comply with the same
conditions as set forth in the underlying judgment, except that
standard condition of supervision number 1 is amended to read as
follows:
The defendant shall not leave the judicial district
in which he is being supervised without permission
of the court or probation officer.
And, defendant shall also comply with the additional conditions
that:
1.

The defendant shall participate in a program
(inpatient and/or outpatient) approved by
U.S. Probation Office for treatment of
narcotic, drug, or alcohol dependency, which
will include testing for the detection of
substance use or abuse. The defendant shall
abstain from the use of alcohol and/or all
other intoxicants during and after completion
of treatment. The defendant shall contribute
to the cost of services rendered in an amount
of at least $25 per month.

2.

The defendant shall pay the balance owed on his
restitution obligation of $81,830.90. Restitution is
payable immediately, but non-payment will not be a
violation of defendant's conditions of supervised
release so long as defendant pays as provided below.
All restitution payments shall be made by defendant to
the Clerk of the U.S. District Court, 501 West lOth
Street, Room 310, Fort Worth, Texas 76102, for
disbursement to the victims named in the underlying
judgment.

3.

If, upon commencement of the term of supervised
release, any part of the $81, 830.90 remains unpaid,
the defendant shall make payments on such unpaid amount
at the rate of at least $200 per month, the first such
3

Case 4:19-cr-00143-A Document 31 Filed 08/02/19

Page 4 of 4 PageID 547

payment to be made no later than 60 days after the
defendant's release from confinement and another
payment to be made on the same day of each month
thereafter until the restitution amount is paid in
full. any unpaid balance of the restitution ordered by
this judgment shall be paid in full 60 days prior to
the termination of the term of supervised release.
The court hereby directs the probation officer to provide
defendant with a written statement that sets forth all the
conditions to which the term of supervised release is subject, as
contemplated and required by Title 18 United States Code
section 3583(f).
The defendant is remanded to the custody of the United
States Marshal.
The date of imposition of the sentence provided by this
judgment is August 2, 2019.
SIGNED August 2, 2019.

I

District Ju
Personal information about ~e defendant is set forth on the
attachment to this Judgment of Revocation and Sentence.
v

-./

4

